2311 Douglas Street
Omaha, Nebraska 68102-1214

1-800-225-6964

(402) 342-2831
Fax: (402) 342-4850 No. 20-827
UNITED STATES OF AMERICA,

Petitioner,
Ye

E-Mail Address:
contact@cocklelegalbriefs.com

Web Site
www.cocklelegalbriefs.com

ZAYN AL-ABIDIN MUHAMMAD HUSAYN,

A.K.A. ABU ZUBAYDAH, ET AL.,
Respondents.

AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 20th day of August, 2021, send out

from Omaha, NE 3

package(s) containing 3 copies of the BRIEF OF AMICUS CURIAE PUBLIC CITIZEN IN SUPPORT

OF RESPONDENTS in the above entitled case. All parties required to be served have been served by third-party commercial
carrier for delivery within 3 calendar days. Packages were plainly addressed to the following:

SEE ATTACHED

To be filed for:
WENDY LIU
Counsel of Record
ALLISON M. ZIEVE
SCOTT L. NELSON
PUBLIC CITIZEN
LITIGATION GROUP
1600 20th Street NW
Washington, DC 20009
(202) 588-1000
wliu@citizen.org

Attorneys for Amicus Curiae

Subscribed and sworn to before me this 20th day of August, 2021.
lam duly authorized under the laws of the State of Nebraska to administer oaths.

» GENERAL NOTARY-State of Nebraska
RENEE J, GOSS
= My Comm, Exp. September 5, 2023

aero Oudiaw-h, Bhly

 

 

Notary Public

Affiant 41246
Brian H. Fletcher

Acting Solicitor General

United States Department of Justice
950 Pennsylvania Avenue, NW.
Washington, DC 20530-0001
202-514-2217
SupremeCtBriefs@USDOJ.gov

Counsel of Record for Petitioner United States

David Franklin Klein

Pillsbury Winthrop Shaw Pittman LLP
1200 17th Street NW

Washington, DC 20036
202-663-8000
david.klein@pillsburylaw.com

Counsel of Record for Respondents Zayn al-Abidin Muhammad Husayn, et al.

Christopher W. Tompkins
Betts, Patterson & Mines, P.S.
701 Pike Street, Suite 1400
Seattle, WA 98101
206-292-9988

ctompkins@bpmlaw.com
Counsel of Record for Respondents James Elmer Mitchell and John Jessen
